No.

In the
Supreme Court of the United States
CARLOS CRUZ-RIVERA,
Petitioner,
v.
UNITED STATES,
Respondent.
PETITIONER’S MOTION FOR LEAVE TO PROCEED
IN FORMA PAUPERIS
Petitioner Carlos Cruz-Rivera hereby moves the Court pursuant to
Rule 39 for leave to proceed in forma pauperis. Petitioner is indigent and
counsel is appointed pursuant to the Criminal Justice Act, 18 U.S.C. § 3006A.
I affirm under penalty of perjury pursuant to 28 U.S.C. § 1746(2) that the
foregoing is true and correct.
Respectfully submitted,
August 29, 2020

/s/ Ines McGillion
Ines de Crombrugghe McGillion
Appointed Counsel of Record for
Petitioner Carlos Cruz-Rivera
S. Ct. Bar No. 295917
Ines McGillion Law Offices, PLLC
P.O. Box 212
126 Main Street
Putney, VT 05346
(646) 246-3868
ines@mcgillionlaw.com

